                                NATIONAL SCIENCE FOUNDATION
                                      4201 Wilson Boulevard
                                    ARI-INGTON, VIRGINIA 22230




    OFFICE OF
INSPECTORGENERAL




  MEMORANDUM

  Date:            November 15,2007

  To :             Mary F. Santonastasso
                   Division Director, Division of Institution and Award Support
                   (BFAIDIAS)

                   Karen Tiplady
                   Division Director, Division of Grants and Agreements (BFAIDGA)

  From:            Joyce N. Werking
                   Acting Senior Audit Manager

  Subject:         OIG Report Number 08-0 1-002
                   Audit of University of Utah's Payroll Distribution System

          Attached is the final report on our audit of the payroll distribution and effort
  reporting system used by the University of Utah to support salary and wages charged to
  NSF grants. The audit was performed by Williams Adley & Company, an independent
  public accounting firm. The University's coinments to the draft report have been
  summarized after the recommendations for each audit finding and our response have been
  provided to these comments. The full text of the University's coinments is included as an
  Appendix to the audit report.

          The audit found that while the University of Utah's payroll distribution and labor
  effort reporting system generally supports the salary costs directly charged to NSF grants,
  the University needs to enhance its written policies and procedures to provide clear and
  comprehensive guidance for a labor effort reporting system that is fully compliant with
  federal regulations. Without appropriate and timely University controls for certifying
  labor effort reports, NSF has less assurance that salary charges reasonably reflect actual
  work on NSF sponsored agreements.

          We consider the University of Utah's internal control procedural weaknesses
  identified in the audit findings to be significant. Accordingly, we request that your office
  work with the University and the cognizant audit agency, the Department of Health and
Human Services (DHHS), to develop a written Corrective Action Plan detailing specific
actions taken and/or planned to address each audit recommendation. Milestone dates
should be provided for corrective actions not yet completed.

        To help ensure the recommendations are resolved within six months of issuance
of the audit report pursuant to Office of Management and Budget Circular A-50, please
coordinate the development of the Corrective Action Plan with our office during the
resolution period. Each audit recommendation should not be closed until NSF, in
coordination with DHHS, determines that University of Utah has adequately addressed
the recommendation and proposed corrective actions have been satisfactorily
implemented. Please note that we have sent a copy of the audit report under separate
cover to Jon D. Crowder of DHHS-OIG.

       We appreciate the cooperation that was extended to us during our review. If you
have any questions, please feel free to call me at 703-292-8097 or James M. Berry
Schneck at 703-292-8627.

Enclosure

cc:    Gilbert Tran, Technical Manager, Office of Management and Budget
       Thomas Cooley, Director and Chief Financial Officer, BFAIOAD
       Alexander Wynnyk, Branch Chief, BFAIDIAS
       Charles Zeigler, Special Assistant, BFAIDIAS
Audit of Payroll Distribution System
           University of Utah
          Salt Lake City, Utah

    National Science Foundation
     Office of Inspector General


                November 15, 2007
                 OIG 08-01-002




                      Audit Performed by:
                Williams Adley & Company, LLP
     Certified Public Accountants/Management Consultants
                1250 H Street, N.W., Suite 1150
                    Washington, D.C. 20005
                 FOR OFFICIAL USE ONLY

                REPORT RELEASE RESTRICTION

THIS REPORT MAY NOT BE RELEASED TO ANYONE OUTSIDE THE
NATIONAL SCIENCE FOUNDATION WITHOUT ADVANCE APPROVAL
BY THE NSF OFFICE OF INSPECTOR GENERAL. THE ONLY EXCEPTION
IS AN AGENCY INVOLVED IN NEGOTIATING OR ADMINISTERING NSF
AWARDS. THE INFORMATION IN THIS REPORT SHOULD BE TREATED
AS CONFIDENTIAL AND MAY NOT BE USED FOR PURPOSES OTHER
THAN ORIGINALLY INTENDED WITHOUT PRIOR CONCURRENCE
FROM THE NSF OFFICE OF INSPECTOR GENERAL.
                              EXECUTIVE SUMMARY
        This audit report provides the results of our review of the payroll distribution and
labor effort reporting system used by the University of Utah (U of U) to validate salaries and
wages charged to National Science Foundation (NSF) grants. In fiscal year (FY) 2006, the
University had total Federal research and development grant expenditures of $214 million, of
which $23 million was directly funded by NSF. Of this amount, over $8.3 million was for
labor costs directly charged to NSF grants.

        Our review of 30 statistically sampled employees disclosed that the University’s
Personal Activity Reports (PARs) generally support the FY 2006 salary costs of $807,416
directly charged to NSF grants for these employees. However, U of U needs to enhance its
written PAR policies and procedures to provide clear and comprehensive guidance for a
payroll distribution and effort reporting system that is fully compliant with Federal
regulations. Without clear guidance, our review disclosed that the University (1) certified
late 51 percent of total FY 2006 salary charges tested from 2 to 284 days; (2) re-distributed
25 percent of the salary charges to NSF projects that were improperly allocated because
significant changes in estimated labor effort were not appropriately recorded when known;
and (3) certified two percent of the salaries without “suitable means of verification” to
validate the actual labor effort expended.

       Without timely or appropriate University controls for certifying labor effort reports,
NSF has less assurance that the salary and wage charges reasonably reflected actual hours
worked on NSF sponsored agreements. The systematic nature of these control weaknesses
increases the risk that excessive labor costs could potentially be charged to NSF grants as
opposed to other Federally-sponsored or University activities.

       These weaknesses occurred because U of U has not updated its PAR policies and
procedures in recent years to establish clear, concise, and well-documented guidance that
ensures its payroll distribution and labor effort reporting system fully complies with Federal
requirements. In particular, contrary to Federal standards, the University has not performed
an independent internal evaluation to ensure that the PAR system was effective, forfeiting an
opportunity to identify and address needed improvements.

        To address these weaknesses, we made recommendations to improve U of U’s
internal control structure for administering and managing its payroll distribution and labor
effort reporting system. Specifically, the University should (1) establish formal procedures
and processes to promote timely PAR certification, (2) define what constitutes “significant
changes” in estimated labor effort distributed to sponsored projects, (3) establish acceptable
“tolerance” limits for certifying such estimated labor effort, (4) define what is acceptable as
“suitable mean of verification” to support labor charges to sponsored projects, and
(5) perform a comprehensive evaluation of the PAR system as well as establish formal policy
for such required evaluations in the future.

        A draft audit report requesting comments on the findings and recommendations was
issued to U of U. Generally, the University concurred with the audit findings and


                                               i
recommendations and agreed to strengthen its PAR guidelines, definitions, procedures,
training, and evaluations. However, it believed that the OMB Circular A-133 audit was
sufficient to meet the Federal requirement for an independent internal evaluation of its
payroll distribution and effort reporting system. In addition, the University felt its current
process for imputing effort for donated time by Principal Investigators satisfied Federal
guidelines. Nevertheless, the University did agree to make changes to its policies and
procedures to address all recommendations.

        U of U’s proposed actions, once implemented, should address our audit
recommendations. NSF should work with the cognizant audit agency to ensure the
University develops an acceptable corrective action plan to resolve each audit
recommendation. We have summarized the University’s responses and provided our
comments after each recommendation in the report. Also, U of U’s comments to the draft
report in its entirety are included as an appendix to this report.




                                                ii
                                     Table of Contents

Executive Summary……………………………………………………………….i

Introduction

 Background………………………………………………………………………..1

 Audit Objectives, Scope, and Methodology………………………………………2

Findings and Recommendations

   1. Improvements Needed for Effort Reporting System to Effectively
      Comply with Federal Requirements and University Policy ..........................5

   2. The Imputed Rate for Sponsored Projects with Uncompensated
      Labor Effort Lacks Support………………………………………………. 15

Appendix

 University of Utah’s Response to Draft Audit Report……………………………18


                                        ACRONYMS

               NSF                    National Science Foundation
               OIG                    Office of Inspector General
               OMB                    U. S. Office of Management Budget
               PAR                    Personal Activity Report
               PI                     Principal Investigator
               OMAA                   Office of Management Accounting and Analysis
               OSP                    Office of Sponsored Projects
               U of U                 University of Utah




                                               iii
                                    INTRODUCTION

Background
        The University of Utah (U of U), located in Salt Lake City, is a major teaching and
research university. It is ranked 28th nationwide out of 127 major public research universities
according to the Lombardi Program on Measuring University Performance, with a particular
distinction in medicine, genetics, and engineering.

        U of U has an enrollment of approximately 29,000 students, of which 77 percent are
undergraduates. The student body is comprised of individuals from all 50 states and more
than a 100 foreign countries. It offers 77 undergraduate majors and 95 major fields of study
at the graduate level. During the 2005-2006 academic year, the University had over 550
doctoral graduates; 1,480 master graduates; and almost 5,000 baccalaureate graduates. The
University campus is comprised of almost 300 buildings on over 1,500 acres, including a
health sciences complex and a Research Park. There are approximately 2,700 faculty
members and 13,700 other employees.

         According to FY 2006 audited financial reports, U of U’s total revenue was over $2.1
billion, excluding gifts and capital-related revenues. Significant revenue components were
patient care of $822 million (39%); Federal grants and contracts of $207 million (10%); and
private grants of $74 million (3%). Of the Federal grant and contract revenues, $23 million
(11%) was funded by NSF, of which $8.3 million (36%) was for salaries and wages.

        U of U’s management and oversight of its Federal grant programs is shared between
the Office of Sponsored Projects (OSP), the Grants and Contracts Accounting office, the
Office of Management Accounting and Analysis (OMAA), and the Payroll office. The OSP
is responsible for pre-award grant activities including establishing Federal awards in the
university’s financial system, while the Grants and Contracts Accounting office is tasked
with post-award review and management of sponsored projects. In addition, the OMAA is
responsible for distributing and tracking PARs to provide for quarterly certification of
employee salary costs directly charged to Federal awards. Specifically, OMAA requests the
Payroll office to generate the PARs, compiles and distributes the reports to the Academic
Departments, and tracks the return of the reports.

       Within each Academic Department, the Principal Investigator (PI) is primarily
responsible for the administration and oversight of each Federally-sponsored project.
However, the PI often assigns the administrative portion of this responsibility to the
Department’s administrative assistant to monitor compliance with the award budget and to
review project expenses. Both the PI and administrative assistant review the monthly
financial management reports for each sponsored project to ensure costs are reasonable and
allowable.




                                              1
Objective, Scope, and Methodology
        Audit Objectives: Our audit objectives were: (a) to evaluate whether the
University’s internal controls were adequate to properly manage, account for, and monitor
salary and wage charges to NSF grants in accordance with OMB and NSF grant requirements
and (b) to determine if salary and wage charges were allowable, allocable, and reasonable in
accordance with Federal cost principles and NSF grant terms and conditions.

       Scope and Methodology: The audit focused on the University’s payroll distribution
system and accordingly reviewed internal controls for ensuring that labor costs charged to
NSF (i) were actually incurred, (ii) benefited NSF awards, (iii) were accurately and timely
recorded and charged to NSF, and (iv) were for allowable and allocable-type activities as
required by Federal and NSF requirements. In addition, we evaluated if the level of PI effort
pledged in grant proposals and award documents was actually contributed by the faculty
member to accomplish award objectives.

         To address each of these control objectives, the OIG engaged a statistician to provide
expert advice in selecting a statistical sample of employee salary records for testing. The use
of statistical tools and methodology will enable projecting our audit results to the entire
population of universities to be included in the OIG planned reviews of payroll distribution
systems nationwide. However, due to the small statistical sample size of 30 employees
tested, we are not able to make any projections to the total U of U population of labor costs
charged to NSF grants. Specifically, the FY 2006 salary costs for the 30 sample employees
tested amounted to $807,416 and were supported by 111 Personal Activity Reports (PAR).
Our statistical sample was derived from a total population of 684 University employees who
charged $8.3 million in salaries to NSF grants during FY 2006. This population excluded
(a) any employee with total salary costs of $100 or less and (b) all salary charges for
undergraduate students. These amounts were excluded because of their small dollar value
and the difficulty in locating undergraduate students for personal interviews.

        We compared U of U’s policy and procedures to Federal and NSF requirements for
allocating labor costs to Federal awards and interviewed University personnel to gain an
understanding of the controls in place to ensure salary and wages charged to NSF awards
were reasonable and allowable. For each statistically selected salary record, we obtained the
following documentation to determine whether labor costs charged to NSF awards met the
control objectives:

       •   PARs documenting 100 percent of each employee’s compensation allocated to
           sponsored and non-sponsored projects for each reporting period.

       •   Fiscal Year Salary Change forms or other documents supporting the approved
           annual salary for employees.

       •   Management Reports detailing the actual salary and wages charged to sponsored
           projects and other activities for each employee during each reporting period.


                                               2
       •   Award documents to determine whether the grant had any terms and conditions
           that would affect the allowability of labor charges to the award.

         To ensure that salary and wage costs charged to NSF awards were incurred and
benefited the project, we corroborated the PAR information by interviewing the 30 sample
employees. We inquired whether (a) the labor charges documented were actually incurred on
projects and activities, (b) the approximate percentage of effort actually worked on each
sponsored project and/or activity was reasonably consistent with NSF labor charges, and
(c) the type of work performed on NSF projects was generally consistent with the scope of
the awards. Additionally, we interviewed selected Principal Investigators (PIs) to determine
the number of projects and personnel they were responsible for and their processes for
verifying employee work activity prior to approving and signing the PARs.

        To confirm that faculty effort pledged in grant proposals was actually contributed to
accomplish grant objectives, we reviewed processes for reporting and tracking PI effort and
whether the associated salary costs were properly included in the organized research base for
computation of the U of U’s indirect cost rate. We reviewed award documents for all Federal
grants that a faculty member worked on during FY 2006 to determine the effort pledged on
each project and compared this proposed effort to the approximate percentage of actual effort
worked on the project. In addition, we determined whether and how the University tracked
and documented PI effort on sponsored projects when no faculty salary support was
requested or reimbursed by the Federal Government.

        To determine whether labor costs were accurately recorded and charged to NSF, we
compared the amounts in Fiscal Year Salary Change Forms or other documentation
supporting salaries and wages paid to the amounts recorded in the PARs for each individual
in our selected sample. We recalculated salary and wage costs charged to NSF projects by
using the salary shown on supporting documentation and apportioning it by the period of
time represented on the PARs. We also reviewed labor transactions to determine whether the
University followed Federal, NSF, and campus requirements in charging labor costs to NSF
projects.

        We evaluated whether U of U officials approved and signed effort reports in a timely
manner by comparing the date the PARs were certified and returned to the due dates
established by the University. The University typically established the due date at 30 days
from Departmental receipt of the reports for each quarterly reporting period.

        Further, we reviewed all internal audit and accountability reports with findings
regarding the payroll distribution/effort reporting system or salary and wage costs, issued
within the last three years by U of U’s Internal Audit Office. For each audit report reviewed,
we obtained and reviewed the 6-month follow-up report to determine if corrective actions
implemented were satisfactory to address the audit recommendations. In addition, we
interviewed the Assistant Vice President of Auditing and Risk Services and/or the Associate
Vice President of the Division of Human Resources, as applicable, to determine corrective
actions taken for review recommendations less than six months old. This information was



                                              3
summarized and assessed for additional areas of risk where increased audit effort could be
warranted.

        We obtained and reviewed the University’s OMB Circular A-133 audit reports for
fiscal years 2003, 2004, and 2005 (2006 has not been completed) performed by the State
Auditors. For the FY 2005 audit, the audit workpapers were reviewed and the cognizant
audit director and staff were interviewed to ascertain the audit scope, the audit procedures
performed, and the results obtained. The State Auditors did not report any deficiencies or
internal control weaknesses in the FY 2005 A-133 audit report or management letter.

        Onsite audit work at U of U’s campus was performed for 2-week periods during
January and April 2007. The remaining audit work was completed through phone
interviews, emails, and documentation requests through June 2007. Our audit was conducted
in accordance with the Comptroller General’s Government Auditing Standards and
accordingly included such tests of accounting records and other auditing procedures, as we
considered necessary, to fully address the audit objectives.




                                               4
                     FINDINGS AND RECOMMENDATIONS

 1. Improvements Needed for Effort Reporting System to Effectively
    Comply with Federal Requirements and University Policy

        Federal regulations provide that labor costs charged to sponsored projects should be
reasonable in relation to the actual work performed. In particular, payroll distribution reports
must be signed by an employee or an official with a “suitable means of verification” that the
work was performed and any “significant changes” to estimated labor effort must be
identified and entered into the payroll distribution system. Although Federal and NSF
requirements do not specify when a payroll distribution report should be completed,
university officials should provide the after-the-fact confirmation as close to the end of the
reporting period as possible to ensure its reliability.

        Our review of 30 statistically sampled employees disclosed that U of U’s Personal
Activity Reports (PAR) generally support the FY 2006 salary costs of $807,416 directly
charged to NSF grants. However, improvements are needed to ensure the PAR system is
fully compliant with Federal regulations. Review of 111 PARs for the 30 statistically
sampled employees found the following control weaknesses:

   •   Thirty four PARs or 51 percent of labor charges tested were submitted after
       University-established deadlines by a range of 2 to 284 days.
   •   Twelve PARs or 25 percent of labor charges tested were improperly allocated to NSF
       projects when officials knew in advance of significant changes in total estimated
       labor effort to such sponsored agreements.
   •   Four of the 30 employees verbally reported 5 to 13 percent less actual labor effort
       worked on NSF projects than the effort shown certified on the PARs.
   •   Three PARs or 2 percent of salary charges tested were inappropriately certified by
       officials without “suitable means of verification” documenting the reasonableness of
       the actual level of work performed.

        As a result of these control weaknesses, there is less assurance that the labor
certifications are reliable because U of U is unable to ensure that salary and wage costs
charged to NSF awards are reasonable in relation to the actual work performed. This
increases the risk of labor costs being inappropriately charged to NSF awards as opposed to
other sponsored projects and/or University activities.

        These weaknesses occurred because U of U has not established clear, concise, and
well-documented policies and procedures to ensure its payroll distribution and labor effort
reporting system fully complies with Federal requirements. Contrary to Federal standards,
the University has not performed an independent internal evaluation to ensure that the PAR
system was effective, forfeiting an opportunity to identify and address needed improvements.
In addition, U of U needs to (1) establish formal processes to promote timely PARs
certification, (2) define what constitutes “significant changes” in estimated labor effort

                                               5
distributed to sponsored projects and establish acceptable “tolerance” limits for certifying
such estimated labor effort, and (4) define what is acceptable as “suitable mean of
verification” to support labor charges to sponsored projects.

OMB Requirements

          OMB Circular A-21, Cost Principles for Educational Institutions, require
certification of labor effort/activity contributed by employees on Federal grants.
Specifically, paragraph J10.b. states that a payroll distribution system is required that will
“. . . reasonably reflect the activity for which the employee is compensated by the institution;
and encompass both sponsored and all other activities on an integrated basis...” Such a
system must provide for after-the-fact confirmation of employee activity by a responsible
person with “suitable means of verification that the work was performed.”

        The Circular recognizes that labor charges may be made initially to sponsored
agreements on the basis of estimates made before services are performed. But when
“significant changes in the work activity” occur, such changes in the payroll distribution
must be identified and entered into the system. Further, Circular A-21 recognizes that a
precise allocation of labor effort is not always feasible and states that reliance can be placed
on “estimates in which a degree of tolerance is appropriate.” Furthermore, OMB Circular
A-110, Uniform Administrative Requirements for Grants and Agreements with Institutions of
Higher Education, Hospitals, and Other Non-Profit Organization, 1 requires a recipient’s
financial management system to provide for “accurate, current and complete disclosure of the
financial results of each Federally-sponsored project or program. . .[and] written procedures
for determining the reasonableness, allocability and allowability of costs in accordance with
the provisions of the applicable cost principles.” Therefore, a university should have written
procedures defining (1) what constitutes “significant changes in work activity” that are
required to be entered into the payroll distribution system and (2) what level of precision is
acceptable between actual effort and certified effort that is considered to be tolerable and
does not have to be adjusted in the payroll distribution system.

        Pursuant to the OMB Circular A-21 requirements, U of U has established the PAR
system to provide for quarterly reporting and certification of salaries directly charged on each
Federally-sponsored project on which an employee works. University officials stated that it
typically takes about a month after each reporting quarter ends to compile and distribute the
PARs to the certifying officials in each of the Academic Departments. The certifying
officials are required to review the PARs for accuracy, make any necessary corrections, and
return the certified reports to their Department representatives. To ensure timely review and
approval, U of U has established due dates for returning the reports in its Personal Activity
Report Instructions issued with the distribution of the quarterly PARs. Typically, the due
dates established were 30 days after the reports were received by Department officials.




1
    Paragraph .21(b)(1) and .21(b)(6) of Financial and Program Management section of OMB Circular A-110

                                                      6
Timeliness of PARs Reports

        Our review found that the University certifying officials did not always approve and
return the PARs within the 30-day timeframe. Specifically, 34 of the 111 PARs tested,
representing $414,897 or 51 percent of total labor costs sampled, were submitted after the
30-day turnaround period. In 10 cases, representing 45 percent of the total late salaries, it
took over six months for certifying officials to review, approve, and return the PARs. In
particular, four of the reports were late by more than nine months and represented 20 percent
of the total late salaries. The chart below summarizes how much time beyond the 30-day
time period officials took to approve and submit the 34 late reports.

                                     Effort Reports Certified Late

              Days Late                # PARs           % of Late         Total Labor        % Late-
                                                         PARs                Costs          Labor Costs
       0-30 days                           8              24%                $ 62,247          15 %
       31-60 days                          5              15%                  33,081          8%
       61-90 days                          4              12%                  39,568          10 %
       91-120 days                         3               9%                  69,092          17 %
       121-150 days                        4              12%                  21,721           5%
       151-180 days                        0               0%                       0           0%
       181-270 days                        6              18%                 106,036          25%
       271-284 days                        4              12%                  83,152          20%

                 Total                     34                                $414,897


        Timely approval of PARs is essential to ensure labor charges to NSF grants are
reliable because certifying officials are generally relying on their memory when approving
reported work activity for themselves and the individuals that work for them. It is difficult
for officials to remember as far back as five months 2 to confirm employee activity at the end
of each reporting period given the significant workload of many of the individuals.
Specifically, many PIs have multiple awards and many employees for whom they are
responsible, which increases the risk that the individual’s memory of the amount and type of
activities performed will be less reliable as time increases past the established time
limitations. For example, we noted that one PI had six awards that involved approximately
20 graduate students and post-doctorate scholars working in his laboratory. Thus, by limiting
the review and approval of PARs to the shortest amount of time possible ensures a more
reliable certification of salary costs associated with such activity on Federal awards.




2
         The amount of time certifying officials have to recall work activities is five months because the report
covers three months; compilation and distribution takes about one month, and return is one month.

                                                        7
Significant After-The-Fact Changes in Labor Effort Reporting

        Contrary to Federal requirements, U of U used the PAR system to routinely
re-allocate substantial labor costs between NSF sponsored projects during the after-the-fact
confirmation process because “significant changes” in estimated labor effort were not
appropriately entered into the payroll distribution system when initially known in advance.
Specifically, our review of 30 sampled employees disclosed that at the time of after-the fact
certification, three individuals (10 percent) used the PARs to transfer 50 to 70 percent of their
salary costs, initially allocated to one or two NSF projects, to five or six other NSF awards.
The redistributions were made on 12 of the 111 PARs reviewed and equated to $203,239 or
25 percent of the total salaries tested.

        While it is appropriate to make such corrections when actual effort worked is
significantly different from the estimated payroll distribution, OMB Circular A-21 provisions
also require prospective revisions be concurrently made in the estimated labor allocations for
the affected sponsored projects in the payroll distribution system. However, U of U did not
make such prospective revisions to ensure future quarterly PARs reasonably reflected the
labor effort to be expended on NSF projects.

       Furthermore, our interviews of the 30 sampled employees found that the actual
FY 2006 labor effort of four employees on NSF sponsored projects was less than what was
reported and certified on the PARs; with deviations ranging from 5 to 13 percent and
representing $23,668 or about 3 percent of total salaries tested. However, it is difficult to
know with certainty whether the effort reported during the interviews was correct because the
employees were relying on their memory for work performed in prior months.

        Nevertheless, U of U had not defined an acceptable level of tolerance permissible
between certified labor effort allocated to sponsored projects and the actual effort worked, to
be used during the after-the-fact certification process. As a result, certifying officials did not
have an established University standard for determining if the reported differences of 5 to 13
percent between actual and certified labor effort were reasonable or if adjustments to NSF
salary charges were required. At some universities, the acceptable variance has been
established at five percent. 3 Clearly, U of U needs to define its own acceptable level of
tolerance along with implementing guidance.

Certifying Official Had Insufficient Means of Verification

       University officials approved the PARs for 3 of the 30 sampled employees tested
without “suitable means of verification” to validate the reasonableness of the NSF salary
charges. Specifically, a PI and a Department Chair certified 3 of the 111 PARs reviewed,
representing $16,475 (two percent) of the salaries tested, by relying on incomplete

3
      A March 2007 report entitled “Policies and Practices: Compensation, Effort Commitments, and
Certification,” issued by the Council on Governmental Relations, stated that the 5-percent standard used by
some universities was based on a 1979 interpretation by the prior Department of Health, Education, and Welfare
stating “As a general rule of thumb, a change applicable to a given project or activity of 5% or more of an
employee’s total effort would warrant an adjustment by the employee or the official.”

                                                      8
information and/or not obtaining any documentation evidencing if the NSF charges were for
actual work performed on the sponsored projects.

       •   A PI approved a PAR for a graduate student who devoted 28 percent on xxx effort
           to the NSF project for which the certifying PI was responsible and 72 percent
           effort to another sponsored project for a different PI. While the certifying PI did
           obtain a copy of the project deliverable for the other award, the certifying PI did
           not speak with the graduate student or the other PI to validate the reasonableness
           of the 72 percent labor effort charged to the other sponsored project for which he
           had no direct knowledge of the work performed.

       •   An xxxxxxxxxxxxxxxxxxxxxx approved the PARs for two professors by trusting
           that their NSF salary charges were correct based on a general understanding that
           the work was being performed by the employees rather than obtaining any
           tangible and/or verifiable documentation to support the reasonableness of the
           actual labor costs incurred on the projects. In xxx position as a xxxxxxxxxxxxxx,
           the individual had no direct knowledge of the actual level of labor effort devoted
           by the two professors on their NSF grants in relationship to other Federally-
           sponsored and University activities during the PAR’s reporting period.

Potential Excess Labor Charges

        Without timely or appropriate U of U controls for certifying labor effort reports, NSF
has less assurance that a significant amount of the salary and wage charges reasonably
reflected actual hours worked on NSF sponsored agreements. Control weaknesses resulted in
the University (1) certifying late 51 percent of total salaries tested, (2) re-distributing 25
percent of salary charges to other NSF projects that were improperly allocated because
significant changes in estimated labor effort were not appropriately recorded when known,
and (3) certifying two percent of salaries tested with insufficient “suitable means of
verification” to document actual work performed. The systematic nature of these control
weaknesses increases the risk that excessive labor costs could be potentially charged to NSF
grants as opposed to University activities. Similarly, such weaknesses raise concern about
the reasonableness of the labor charges on the University’s other $191 million of Federal
awards.

Factors Contributing to Effort Reporting Weaknesses

        U of U has not established clear and comprehensive written policies and procedures
for a payroll distribution and effort reporting system that is fully compliant with Federal and
campus requirements. In particular, it has not performed the required independent evaluation
of the system to ensure its effectiveness for properly allocating and validating employee
labor charges to Federally-sponsored agreements.

        Specific Procedures and Accountability Needed. While U of U has basic payroll
distribution and effort reporting policies and procedures, it has not updated such guidance in
recent years. OMB Circular A-21 establishes certain basic requirements for a payroll

                                               9
distribution system, but there are many areas where the Circular does not prescribe specific
and quantifiable standards. Accordingly, it is important for an institution to establish its own
standards in these areas based on its unique organizational and financial structure. To date,
the University has not established its own standards in the following areas:

        •   Formal PAR Timeliness Standards -While U of U has established and
            communicated deadlines for certifying and returning PARs in its quarterly
            distribution instructions, the University has not established clear and
            comprehensive written policies for PAR’s distribution, review and approval, and
            follow-up. The University informed us that the Office of Management
            Accounting and Analysis (OMAA) tracks the return of certified PARs, but it
            typically issues only one reminder letter each quarter notifying the Academic
            Departments/Deans of delinquent reports. However, periodic reminders at more
            frequent intervals, using an increasingly graduated scale to higher level
            management officials, would be a methodology that the University could use to
            establish better accountability over the PAR process to promote timelier
            certification.

            Further, without formal timeliness standards, there were no immediate
            consequences for not meeting the 30-day informal deadline for PAR approval.
            Specifically, U of U did not impose penalties until a PAR was overdue by a year,
            at which time the Office of Sponsoring Projects could withhold new grant
            proposal submissions by the delinquent PI. 4 Also, the University did not include
            timely PAR submission as a rating factor on annual PI job evaluations nor held
            senior management officials, such as Department Chairs, accountable for the
            timely approval and return of such reports. Such actions would likely promote
            more timely reporting because senior management officials have more leverage
            than administrative assistants in ensuring that PIs complete PAR certifications
            within established University timeframes.

        •   Significant Changes and Level of Precision – U of U has not established clear
            quantifiable standards for certifying the reasonableness of employee work activity
            on Federally-sponsored projects. Specifically, the University’s PAR system
            allows for initiating prospective changes to labor estimates due to “significant
            changes” in expected effort. However, it has not quantitatively defined what
            constitutes “significant changes in work activity” that must be identified and
            entered into the payroll distribution system, as required by OMB Circular A-21.
            Similarly, U of U has not addressed or defined what level of precision is expected
            between actual labor effort and certified effort when reviewing and approving the
            PARs. Specifically, the University has not determined how much an employee’s
            actual effort can differ from their certified effort before a change is required to be
            entered into the PAR system to transfer costs associated with the applicable
            sponsored awards.



4
    None of the 111 PARs in our sample were over one year late.

                                                    10
           As such, while U of U instructs employees to make after-the-fact PAR
           adjustments for changes in work activity, employees are not required to initiate
           any prospective adjustments of payroll distribution to ensure labor charges to the
           affected sponsored projects in the future are reasonable. University officials
           stated that such prospective adjustments would be too labor intensive because the
           estimated labor effort would have to be manually recalculated for all affected
           projects. However, the current process of making retroactive adjustments is
           similarly labor intensive. In addition, such a large volume of after-the-fact
           revisions in PARs suggests a lack of proper management controls over the effort
           reporting process because significant amounts of costs are being transferred
           between various Federally-sponsored projects.

       •   Suitable means of verification – U of U’s policy and procedures do not specify or
           explain the types of documentation considered acceptable to provide “suitable
           means of verification” for a “responsible official” to certify the reasonableness of
           labor charges to sponsored projects. Without such guidance, some University
           certifying officials improperly believed that general knowledge of a sponsored
           project or the study results was sufficient first-hand knowledge of the reported
           labor effort. These officials were not aware that certifying officials are required
           to have verifiable knowledge of the employee’s regular duties and responsibilities
           and the actual time devoted to those various activities during the effort reporting
           period.

       •   Effort Reporting Training - Although U of U has established an effort reporting
           training course, it does not require mandatory attendance by those involved in the
           process, forfeiting an opportunity to enhance compliance with both Federal and
           University requirements. None of the 30 sampled employees had attended the
           effort reporting training class. Employee participation in such institutional
           education and training programs and other knowledge sharing practices are an
           integral internal control component for successfully integrating established
           policies and procedures into an effective University payroll distribution and effort
           reporting system.

         Independent Internal Evaluations Not Performed. U of U did not conduct an
independent evaluation of its payroll distribution system, as required by OMB Circular A-21
standards. Such evaluations would have likely disclosed the need to establish clear and
comprehensive written policies and procedures to improve management and administration
of its labor effort reporting system. While University officials were aware of the A-21
evaluation requirement, they believed that the annual OMB Circular A-133 audit included
such an evaluation and satisfied the requirement. However, we determined that the A-133
audit did not evaluate the payroll distribution system in sufficient detail to fulfill the Federal
evaluation standard.

       Similarly, we concluded that a review of the payroll distribution system performed by
OMAA also did not fulfill the Federal evaluation requirement. Specifically, (1) OMAA
could not be considered “independent” because it is directly involved in the PAR process and

                                                11
(2) the scope of the OMAA review was not sufficiently comprehensive to ensure that the
payroll distribution system met all OMB Circular A-21 requirements. For example, we
found that the evaluation did not test whether direct and indirect cost activities were
confirmed by responsible persons with “suitable means of verification” that the work was
performed and did not verify that the certified effort allocations reasonably represented the
actual work performed.


Recommendations

We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support coordinate with the cognizant audit
agency, as needed, to implement the following recommendations:

1.1    Work with U of U to improve its internal control structure to provide for a payroll
       distribution system that reasonably reflects the actual effort/activity devoted by
       employees on sponsored agreements. At a minimum, the University should develop
       clear guidance and procedures to:

       a. Enhance the PAR submission guidelines to improve timeliness as follows:

           •   Formally establish the 30-day PAR submission deadline into U of U policies
               and procedures and issue a formal University notification to all cognizant
               officials on the importance of timely PAR submissions.

           •   Establish clear duties for the various University officials and/or offices
               responsible for ensuring timely PAR submissions and establish consequences
               for late PAR submissions.

           •   Establish a process for periodic reminder notices to follow-up on late PARs
               using an increasingly graduated scale to the Department Chair, the Dean, and
               the Vice President.

       University Response

       U of U agrees that timelier reporting is important and will establish a faculty and
       administrative committee to enhance PAR submission guidelines to improve
       timeliness. Appropriate revisions to the guidelines will be made to assist in achieving
       this goal.

       OIG Comments

       Once implemented, the University’s proposed actions should address our audit
       recommendation.




                                              12
b. Define what percentage difference constitutes a "significant change” in work
   activity that is required to be entered into the payroll distribution system on a
   prospective basis. Specify the steps to identify and record such prospective
   changes in the system to ensure that the estimated labor distribution reasonably
   reflects the planned effort to be expended on sponsored projects.

University Response

U of U generally concurs and states that the newly established faculty and
administrative committee will define “significant change” and develop
recommendations to address when prospective changes are appropriate and feasible.
However, the University expects PARS to be reviewed closely; therefore, it expects
that reallocations will continue to be necessary.

OIG Comments

It is appropriate that labor reallocations are sometimes necessary. However, it is
important to ensure estimated labor effort allocated to Federal awards is as accurate
as possible to minimize these reallocations. Therefore, we ask that the faculty and
administrative committee keep these factors in mind when developing its policy for
making prospective changes.

c. Establish a “tolerance” or “precision” range of accuracy to be used for certifying
   the reasonableness of labor effort allocated to each Federal award on the PARs.

University Response

U of U concurs and states that the faculty and administrative committee will establish
an appropriate “tolerance” or “precision” range of accuracy.

OIG Comments

Once implemented, the University’s actions should address our audit
recommendation.

d. Define "suitable means of verification" and provide specific guidance and
   examples on what is considered to be sufficient and verifiable knowledge of the
   actual work performed by employees. Particular emphasis should be directed to
   certifying individuals that are designated as “responsible officials” per the A-21
   standards.

University Response

U of U concurs and states that the faculty and administrative committee will define
“suitable means of verification” with guidance and examples.



                                      13
OIG Comments

Once implemented, the University’s actions should address our audit
recommendation.

e. Establish mandatory effort report training for all employees involved in the PAR
   process.

University Response

U of U agrees to implement mandatory training for all employees involved in the
PAR process after the enhanced University guidelines have been approved.

OIG Comments

Once implemented, the University’s actions should address our audit
recommendation.

f. Establish a formal requirement and conduct an independent evaluation of the
   payroll distribution system to ensure its effectiveness and full compliance with
   Federal, NSF, and University requirements. Such a requirement should include
   procedures to ensure an effective and systematic review that will identify reasons
   for any deficiencies and make appropriate recommendations, identify the specific
   office responsible for performing the evaluation, and how often such an
   evaluation should be conducted.

University Response

U of U believes that its OMB Circular A-133 audit meets the requirement of an
independent evaluation and that the payroll information system is evaluated in
sufficient detail to fulfill the Federal evaluation requirement. However, the
University agrees to enhance its PAR system by establishing an additional
independent review in accordance with the recommendation.

OIG Comments

The OMB Circular A-133 audit does assess several aspects of the University’s PAR
system, and as such can be a valuable part of its independent evaluation. However,
the A-133 audit methodology is not detailed enough to completely satisfy the Federal
evaluation requirement. For example, there was no assessment of timely submission
of PARs or an assessment of whether PAR certifications were supported with
“suitable means of verification.” Therefore, we believe that the University’s
proposed additional independent review is necessary and, if implemented, should
address our audit recommendation.




                                      14
2. The Imputed Rate For Sponsored Projects with Uncompensated PI
   Labor Effort Lacks Support

         OMB Circular A-21 requires a payroll distribution system that will “reasonably
reflect the activity for which individuals are compensated by the institution.” The system
must encompass the time and effort expended by employees on both sponsored projects and
all other activities on an integrated basis. Further, a January 2001 OMB Clarification
Memorandum 5 provides additional guidance for verification requirements for PI effort on
sponsored projects. The Memorandum makes clear that the payroll distribution system will
include both PI salaries charged directly to sponsored projects as well as salary-related cost
sharing contributed. In addition, the Memorandum states that when sponsored projects do
not include any faculty (or senior researcher) effort, paid or unpaid, an estimated amount
must be computed and included in the University’s organized research base used for
computing its negotiated Federal indirect cost rate.

        Consistent with the OMB Clarification Memorandum, we found that U of U had
developed a five-percent imputed rate to estimate the amount of PI salaries to include in the
organized research base when PIs had no reported labor effort devoted to sponsored projects.
University officials stated that U of U developed the five-percent rate by identifying all
Federal projects with no reported PI salary charges and contacting the researchers to
ascertain their estimated level of effort actually devoted. According to officials, most PIs
estimated their level of effort was five percent or less. However, the University did not
maintain any documentation to support the process it used to derive the imputed rate.
Without such documentation, we were unable to independently verify the reasonableness of
the five-percent rate or to evaluate the methodology for how it was derived. In addition, the
process for applying the five-percent rate to estimate applicable PI salaries to include in the
organized research base was not documented in U of U’s written policies and procedures.

        Specifically, a review of the 30 statistically selected employees disclosed 2 of 4 PIs
reviewed had worked on sponsored projects for which no labor effort was reported. Our
review of the applicable PARs showed that these sponsored projects were not listed as a part
of the PIs’ total reported labor effort for the quarter, including any cost-shared effort on the
subject NSF grants. According to U of U officials, it would impute five percent of both PIs
annual salaries to include in the organized research base used for computing the institution’s
indirect cost rate. This imputed amount would be calculated and included in the organized
research base during the year when the University actually negotiated its multi-year Federal
indirect cost rate agreement with its cognizant audit agency. 6



5
        OMB Memorandum M-01-06, dated January 5, 2001, Clarification of OMB A-21 Treatment of
Voluntary Uncommitted Cost Sharing and Tuition Remission.
6
         The Department of Health and Human Services (DHHS) is the cognizant Federal audit agency for the
University of Utah. During FY 2006, the University did not calculate the imputed five-percent PI salary
amount because this was not a year when the indirect cost rate agreement was negotiated with HHS.

                                                   15
        Of the University’s 684 NSF project participants in FY 2006, 180 (26 percent) were
PIs that may have similarly donated time to sponsored projects. Thus, the total estimated
amount of PI donated labor effort imputed and included in the organized research base could
have been significant. Thus, if the associated salary costs for such donated faculty effort
were underestimated, the indirect cost rate would be higher and result in the Federal
Government paying greater indirect costs on all its sponsored projects.

        According to U of U officials, such donated PI effort on sponsored projects is
considered a part of a faculty member’s overall University research responsibilities and
included in the individual’s annual compensation rate; therefore, there is no separate tracking
and reporting of such donated time and effort. While we agree that the OMB Clarification
Memorandum does not require tracking of such donated faculty effort, the University is
required to maintain documentation to support the reasonableness of the imputed five-percent
rate. Specifically, Federal regulations 7 require a recipient’s financial management system to
“provide for written procedures for determining the reasonableness, allocability and
allowability of costs in accordance with the provisions of the applicable Federal cost
principles…”

Recommendations

We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support coordinate with the cognizant audit
agency, as needed, to ensure U of U implements the following recommendation:

2.1     Maintain documentation to support the methodology used for imputing the salary
        costs for donated PI (or senior researcher) effort for sponsored projects included in
        the organized research base used for computing the University’s negotiated indirect
        cost rate with the Federal Government.

        University Response

        U of U believes its process for imputing salary costs for donated PI effort meets the
        OMB requirements for treatment of voluntary uncommitted cost sharing and the
        Department of Health and Human Services (DHHS) requirements for preparing its
        Federal indirect cost rate proposal. Further, it claims the prescribed information is
        contained within the proposal and its supporting documentation. Nonetheless, the
        University concurs with the recommendation and agrees to maintain appropriate
        documentation with its indirect cost rate proposal.

        OIG Comments

        Once implemented, the University’s actions should address our audit
        recommendation.


7
    Paragraphs .21(b)(6) of OMB Circular A-110, Uniform Administrative Requirements for Grants and
Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations.

                                                   16
2.2   Document the requirement for estimating and including such PI salary costs in the
      organized research base in formal written University procedures.

      University Response

      Although U of U followed the OMB Clarification Memorandum requirements while
      preparing its federal indirect cost rate proposal, it agrees to maintain appropriate
      documentation in its permanent files.

      OIG Comments

      The University’s comments do not clearly agree to formally document its current
      procedure of imputing PI salary and including the amount in its organized research
      base. Without documenting the process in the U of U’s formal procedures, future
      treatment of such costs may not continue to meet OMB and DHHS requirements.
      While maintaining supporting documentation is important, such actions are not
      sufficient to fully satisfy the recommendation. Therefore, we reiterate our
      recommendation that the University formally document its process to ensure
      continued compliance with Federal requirements.




                                           17
                                                                                                      Appendix




                                       November 13,2007

 James J. Noeth
 Senior Audit Manager
 Office of the Inspector General
 National Science Foundation
 4201 Wilson Boulevard Suite 1135
 Arlington, VA 22230

 Dear Mr. Noeth,

 Subject: Audit of Payroll Distribution System

 The University of Utah found this a very positive audit evaluating the payroll distribution
 system. Thank you for the suggestions for improvements t o the guidelines, evaluations and
  documentation for the current system. We valued workinnwith.Jerel
                                                            -            B. Silver, MarkY. Kim and
 James M. Barry Schneck of the National Science Foundation as well asq-band
O                   f ~ i l l i a m s Adley
                                      ,     & Company LLP.

 Attached is the document containing the University of Utah's written comments for each of the
 audit findings contained in the Draft Report of the Audit of Payroll Distribution System including
 agreement or disagreement with each recommendation.

                                      Sincerely,




  Enclosure:




                                                Universlty of Utah
                                     201 South Presidents Clrcle. Room 209
                                         Salt Lake City, Utah 84112-9012
                                          Oflice Phone: (801) 5816404
                                          Fax Number: (801) 581-4972
                                    University of Utah

                                 November 13, 2007
              Response to Draft NSF Audit of Payroll Distribution System

Findings
 1. Improvements Needed for Effort Reporting System to Effectively Comply
    with Federal Requirements and University Policy

The University is pleased that NSF concluded “…the University of Utah’s
Personal Activity Reports (PARs) generally support the FY 2006 salary
costs…charged to NSF grants.”

The University of Utah believes that its PARs are in compliance with OMB
Circular A-21 effort reporting requirements. The OMB Circular A-133
Audit provides an annual independent evaluation. The University’s
Auditors state:

       “As part of the Utah State Auditor's Office A-133 audit of the University of Utah’s
Research & Development Cluster, the auditors select a random sample of approximately 30
personnel to test the internal controls over the University’s payroll system and to test for
compliance with both Circular A-21 and specific grant requirements. During this review, the
auditors look at PARs for University employees, as applicable, and compare the activity on
an employee’s PAR to the distribution of his or her time on the University’s payroll system
and general ledger.”

The University agrees to further strengthen guidelines, definitions,
procedures, training and evaluations.

Recommendations

We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support coordinate with the cognizant
audit agency, as needed, to implement the following recommendations:

1.1    Work with the University of Utah to improve their internal control structure to
       provide for a payroll distribution system that reasonably reflects the actual
       effort/activity devoted by employees on sponsored agreements. At a minimum, the
       University should develop clear guidance and procedures to:

       g. Enhance the PAR submission guidelines to improve timeliness as follows:


                                             19
   •   Formally establish the 30-day PAR submission deadline into University
       policies and procedures and issue a formal University notification to all
       cognizant officials on the importance of timely PAR submissions.
   •   Establish clear duties for the various University officials and/or offices
       responsible for ensuring timely PAR submissions and establish consequences
       for late PAR submissions.
   •   Establish a process for periodic reminder notices to follow-up on late PARs
       using an increasingly graduated scale to the Department Chair, the Dean,
       and the Provost.

   The University of Utah concurs that timelier reporting is important. The
   University will establish a faculty and administrative committee to enhance
   PAR submission guidelines to improve timeliness in reporting. Appropriate
   revisions to the guidelines will be made to assist in achieving this goal. We
   believe that the whole institution benefits from the ideas and support of its
   faculty and administration.

h. Define what percentage difference constitutes a "significant change” in work
   activity that is required to be entered into the payroll distribution system on a
   prospective basis. Specify the steps to identify and record such prospective
   changes in the system to ensure that the estimated labor distribution reasonably
   reflects the planned effort to be expended on sponsored projects.

   The University of Utah generally concurs. The University expects PARS to be
   reviewed closely; therefore, we expect that reallocations will be necessary.
   The faculty and administrative committee referred to above will define a
   “significant change” and develop recommendations when prospective
   changes are appropriate and feasible.

i. Establish a “tolerance” or “precision” range of accuracy to be used for
   certifying the reasonableness of labor effort allocated to each federal award on
   the PARs.

   The University of Utah concurs. An appropriate “tolerance” or “precision”
   range of accuracy will be established by the faculty and administrative
   committee.

j. Define "suitable means of verification" and provide specific guidance and
   examples on what is considered to be sufficient and verifiable knowledge of the
   actual work performed by employees. Particular emphasis should be directed to
   certifying individuals that are designated as “responsible officials” per the A-21
   standards.

   The University of Utah concurs. The faculty and administrative committee
   will define “suitable means of verification” with guidance and examples.


                                      20
       k. Establish mandatory effort report training for all employees involved in the PAR
          process.

           The University of Utah concurs. The University agrees to implement
           mandatory training, after the enhanced guidelines have been approved, for
           all employees involved in the PAR process.

       l. Establish a formal requirement and conduct an independent evaluation of the
          payroll distribution system to ensure its effectiveness and full compliance with
          federal, NSF, and University requirements. Such a requirement should include
          procedures to ensure an effective and systematic review that will identify reasons
          for any deficiencies and make appropriate recommendations, identify the specific
          office responsible for performing the evaluation, and how often such an
          evaluation should be conducted.

           The University of Utah feels that the A-133 audit of the University meets the
           requirement of an independent evaluation and that the payroll information
           system is evaluated in sufficient detail to fulfill the federal evaluation
           requirement. However, the University of Utah will enhance the system by
           establishing an additional independent review in accordance with the
           recommendation.

 2. The Imputed Rate For Sponsored Projects with Uncompensated PI
    Labor Effort Lacks Support

The University believes it has not only met the technical requirements but
the intent of OMB Memorandum M-01-06, dated January 5, 2001,
Clarification of OMB A-21 Treatment of Voluntary Uncommitted Cost
Sharing and Tuition Remission, OMB Circular A-21 and the DHHS DCA
Best Practices Manual for Reviewing College and University Long-Form
Facilities & Administrative (F&A) Cost Rate Proposals when preparing
the F&A proposal.

Recommendations

We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support coordinate with the cognizant
audit agency, as needed, to ensure the University of Utah implements the following
recommendation:

2.3    Maintain documentation to support the methodology used for imputing the salary
       costs for donated PI (or senior researcher) effort for sponsored projects included in
       the organized research base used for computing the University’s negotiated indirect
       cost rate with the Federal Government.


                                             21
      The prescribed information is contained within the proposal and its supporting
      documentation. The University of Utah concurs and will maintain appropriate
      documentation for the next F&A proposal.

2.4   Document the requirement for estimating and including such PI salary costs in the
      organized research base in formal written University procedures.

      Although the University followed the OMB Memo while preparing its F&A
      proposal, the University concurs it will maintain appropriate documentation in
      the permanent F&A file.




                                           22
